                                   Department
                                    e         of Energy
                                       Washington, DC 20585

                                         December 5, 2003


  MEMORANDUM FOR THE DIRECTOR, OFFICE OF MANAGEMENT, BUDGET
                 AND EVALUATION/CHIEF FINANCIAL OFFICER
  FROM:                   William S. Maharay
                          Deputy Inspector General for Audit Services
                          Office of Inspector General

 SUBJECT:                 Federal Managers' Financial Integrity Act Audit Report Audit Report
                          Audit Report No.: OAS-L-04-06


 We reviewed selected aspects of the Department of Energy's implementation of the Federal
 Managers' Financial Integrity Act (FMFIA) of 1982. The objective of FMFIA, and the
 Department's Management Control Program, is to ensure that controls are working effectively
 and that program and administrative functions are performed in an economic and efficient
 manner consistent with applicable laws.

 During the past year, the Department has undertaken an aggressive campaign to mitigate issues
 described in our Special Report on Management Challenges at the DepartmentofEnergy
(DOE/IG-0580, December 2002). This initiative, which has been personally led by the Deputy
Secretary, seeks to improve the Department's ability to correct or respond to the underlying
causes for significant issues identified through audit findings. These efforts, if ultimately
successful, should enhance the Department's ability to correct problems and ultimately
strengthen its overall management control structure. Our most recent Special Report on
Management Challenges at the DepartmentofEnergy (DOE/IG-0626, November 2003), details
progress made and describes issues that we consider the most significant management and
performance challenges facing the Department.

Our review was conducted to assist management in determining whether Departmental elements
appropriately disclosed previously detected waste or other problems and whether the Fiscal Year
(FY) 2003 evaluation of management controls was carried out in a reasonable and prudent
manner. The attachment to this report details the scope and methodology used to conduct our
audit.

RESULTS OF AUDIT

Based on our limited review, we determined that program elements generally conformed with
requirements of the Department's management control program. However, our review identified
several procedural problems regarding submission of assurance memoranda. As in previous
years, a number of Headquarters and field assurance memoranda were not submitted on time.
The lack of timely reporting could affect the Secretary's ability to report the status of the
Department's management control program to the President and to Congress.

                                  @     Printed with soy ink on recycled paper
                                              -2-



In making our assessment relating to these and other matters, we coordinated closely with the
Office of Program Liaison and Financial Analysis. We appreciate the cooperation of the various
Departmental elements that provided information or assistance.


Attachment

cc:   ChiefofStaff
      Director, Policy and Internal Controls Management, NA-66
                                                                                  Attachment


 SCOPE AND METHODOLOGY

 The Department's evaluation of its control systems was examined for compliance with the
 FMFIA, the General Accounting Office's "Standards for Internal Control in the Federal
 Government," Office of Management and Budget Circulars A-123 and A-127, and
Department of Energy Order 413.1A, "Management Control Program." The results of the
Department's evaluation of control systems will be included in the Performance and
Accountability Report to be published on December 15, 2003. This report provides critical
financial and program performance information in a single report as authorized by the
Reports Consolidation Act of 2000 and addresses a number of significant issues faced by
the Department.

Our review was made in accordance with generally accepted Government auditing
standards, which included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit objective. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our audit. We assessed the Draft Performance and
Accountability Report, as it relates to FMFIA along with supporting documentation filed
by selected Departmental organizations, to determine whether the results of their
evaluations were accurately reported. Also, we performed work to determine whether the
Department developed corrective action plans for reportable problems identified during its
FY 2003 FMFIA reporting process.                                                         . .
DOE F 1325.8
   (8-89) ,
 EFG (07-90)


United States Government                                                                        Deoartment of Energy

memorandum
           DATE:          DEC 2 3 2003
      REPLY TO
       ATTN OF:      IG-34 (A03FN010)

      SUBJECT:       Final Report Package for Audit of "Federal Managers' Financial Integrity Act"
                     Audit Report Number: OAS-L-04-06
               TO:   Frederick D. Doggett, Assistant Inspector General for Audit Services

                     Attached is the required final report package on the subject audit. The pertinent details are:

                         1. Actual Staff days:        52.5

                            Actual Elapsed days:     114
                         2. Names of OIG and/or contractor audit staff:

                            Assistant Director:     Kevin Majane
                            Team Leader:            Sally Leiser

                         3. Coordination with Investigations and Inspections:

                            Investigations:         Brenda Froberg
                                                    December 4, 2003

                            Inspections:            Henry Minner
                                                    December 4, 200



                                                             Rickey R. Hass, Director
                                                             Science, Energy, Technology,
                                                               and Financial Audits
                                                             Office of Audit Services
                                                             Office of Inspector General
                     Attachments:
                     1. Final Report
                     2. Monetary Impact Report
                     3. Audit Project Summary Report
                     4. Audit Database Information Sheet
                        MONETARY IMPACT OF REPORT NO.: OAS-L-04-06

1. Title of Audit:      "Federal Managers' Financial Integrity Act"

2. Division:            Science, Energy, Technology and Financial Audits

3. Project No.:         A03FN010

4. Type of Audit:

      Financial:                                             Performance:
        Financial Statement         _     _                    Economy and Efficiency
        Financial Related                 X                    Program Results
      Other (specify type):

5.

                                                                                                  MGT.       POTENTIAL
            FINDING                COST                        QUESTIONED COSTS                 POSITION      BUDGET
                              AVOIDANCE         _IMPACT
(A)             (B)          (C)       (D)         (E)            (F)      (G)        (H)          (I)           (J)
                Title       One     Recurring   Questioned      Unsup-   Unre-       Total      C=Concur       Y=Yes
                            Time     Amount                     ported   solved   (E)+(F)+(G)   N=Noncon       N=No
                                     PerYear                                                    U=Undec
      N/A




TOTALS--ALL FINDINGS                            _____




6. Remarks

7. Contractor:                                     10. Approvals:
8. Contract No.:                                   Division Director/Date:                       , -.l03/_
                                                                                                        2
9. Task Order No.:                                 Technical Advisor & Date                        ,j4
                                              Office of the Inspector General (OIG)
                                        Audit Project Office Summary (APS)
                                                                                                                   Page I
Report run on:                    December 16, 2003 2:10 PM


  Audit#: A03FN010               Ofc:   FFA     Title: FY 2003 FMFIA

                                                          .     * Milestones ***

                                               Planned          End of Survey            Revised         Actual


   Entrance Conference:.....              18-AUG-03                                 25-AUG-03          25-AUG-03

   Survey:..................
   Draft Report:............
   Completed (With Report):.              01-DEC-03
   ------------        Elapsed Days:              105                                                      114
                                                                                            Elap. Less Susp:
   Date Suspended:                                             Date Terminated:
   Date Reactivated:                                            Date Cancelled:
   DaysSuspended(Cur/Tot):                                    ) Report Number:
  Rpt Title:                                                   Report Type:                Not Found




                                               **** Audit Codes and Personnel ****
   Class:         FIN     FINANCIAL
   Program:       CR     Not Found
  MgtChall: 103          PERFORMANCE MANAGEME
                                                                              AD:   530     MAJANE
   Site:          MRA    MULTI-REGION AUDIT
                                                                           AIC:             Not Found
   SecMiss:       CMT    CORPORATE MANAGEMENT
                                                                      Team Ldr:     121     LEISER
  PresInit: BPI          BUDGET AND PERFORMAN                         Tech Adv:     833     RUBB

                                               S ****    Task Information           **

         Task No:
          Task Order Dt:                                      CO Tech. Rep:
          Orig Auth Hrs:                                      Orig Auth Costs:
          Current Auth:                                       Current Auth Cost:
          Tot Acti IPR Hr:                                    Tot Actl Cost:


                                                      ***•Time Chages ****

                       Emp/Cont Name            Numdays             Last Date

                       LUBECKE, W                       0.6         29-NOV-03
                       LEISER, S                      51.9          29-NOV-03
                        Total:                        52.5

                                               ****   Keywords      ****


                    ACTION PLAN
                    ASSURANCE MEMORANDUM
                                                                                      Attachment 4

                       AUDIT DATABASE INFORMATION SHEET


1. Project No.: A03FN010

2. Title of Audit: Federal Managers' Financial Integrity Act

3. Report No./Date: OAS-L-04-06/December 5, 2003

4. Management Challenge Area: No specific area - applies to all.

5. Presidential Mgmt Initiative: No specific initiative - applies to all.

6. Secretary Priority/Initiative: No specific priority/initiative - applies to all.

7. Program Code: CR

8. Location/Sites: No specific location/site - applies to all.

9. Finding Summary: No findings.



10. Keywords:       Financial
                    FMFIA
                    Internal Control
                    Action Plan
                    Assurance Memorandum
